APPLICATION AND
SOLICITATION
DISCLOSURE
PLATINUM MASTERCARD/PLATINUM REWARDS
MASTERCARD/SECURED MASTERCARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Rates Effective 03.17.2020
Platinum MasterCard

0.00%

Introductory APR for a period of 12 billing cycles.

9.24% to 24.99%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Rewards MasterCard

0.00%

Introductory APR for a period of 12 billing cycles.

12.24% to 26.99%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Secured MasterCard

19.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

Platinum MasterCard
0.00% Introductory APR for a period of 12 billing cycles.
After that, your APR will be 9.24% to 24.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Rewards MasterCard
0.00% Introductory APR for a period of 12 billing cycles.
After that, your APR will be 12.24% to 26.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Cash Advances

Secured MasterCard
19.99%
This APR will vary with the market based on the Prime Rate.
Platinum MasterCard
22.74% to 28.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Rewards MasterCard
22.74% to 30.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Secured MasterCard
25.49%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10429040-MXC10-C-1-090817 (MXC101-E)

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee - Platinum
MasterCard
- Foreign Transaction Fee - Platinum
Rewards MasterCard
- Foreign Transaction Fee - Secured
MasterCard
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

$10.00 or 3.00% of the amount of each balance transfer, whichever is
greater
$10.00 or 4.00% of the amount of each cash advance, whichever is greater
3.00% of each transaction in U.S. dollars
None
1.00% of each transaction in U.S. dollars

Up to $7.00
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Platinum MasterCard, Platinum Rewards MasterCard: The Introductory
APR for purchases will apply to transactions posted to your account during the first 12 months following the opening of
your account. The Introductory APR for balance transfers will apply to transactions posted to your account during the first
90 days following the opening of your account. Any existing balances on Financial Partners Credit Union loan or credit
card accounts are not eligible for the Introductory APR for balance transfers.
Loss of Introductory APR: We may end your Introductory APR for purchases and balance transfers and apply the
prevailing non-introductory APR if you are 60 days late in making a payment.
Effective Date: The information about the costs of the card described in this application is accurate as of: November 05, 2019 .
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Secured MasterCard is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee: $7.00 or the amount of the required minimum payment, whichever is less, if you are five or more days
late in making a payment.
Balance Transfer Fee (Finance Charge): $10.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge): $10.00 or 4.00% of the amount of each cash advance, whichever is greater.
Over-the-Credit Limit Fee: $25.00 or the amount of the transaction exceeding your approved credit limit, whichever is less.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10429040-MXC10-C-1-090817 (MXC101-E)

